No. 20-7125

IN THE
SUPREME COURT OF THE UNTIED STATES

RASHAN WILLIAMS — Appellant
vs.

STATE OF LOUISIANA—Appellee(S)

PROOF OF SERVICE
I, Rashan Williams #422041. do swear or declare that on this date, June 16, 2021 as required by
Supreme Court Rule 291 have served the enclosed Brief in Opposition to the Attorney General's Brief
in Opposition on each party to the above proceedings or that party’s counsel, and on every other person
required to be served, be depositing an envelope containing the drove documents in the United States
mail properly addressed to each of them and with first-class postage prepaid.
The names and address of those served are as follows:
District Attorney's Office
Parish of St. Tammany
701N. Columbia St.
Covington, LA 70433

JeffLandry
P.O. Box 94005
Baton Rouge, LA 70804

Darrel Vannoy, Warden
General Delivery
Louisiana State Penitentiary
Angola, LA 70712

I declare under penalty of perjury that the foregoing is true and correct.
Executed on April 19.2021.

\\MepdQ5\ICS\lp-cfconst3nce8Q\My Documented lente\Wi Ilia ms\VV!l llam s Rashan #422Q41\Wi!llams Rashan BIO USSCTodt

Rashan Williams v. Darrel Vannoy, Warden

2.

In The
Supreme Court of the United States

No.: 20-7125

RASH AN WILLIAMS
v.
STATE OF LOUISIANA

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1 (h), I certify that the Reply to the Attorney General's Brief
in Opposition contains 4.573 words, excluding the parts that are exempted by Supreme Court Rule 33.1
(d).
I declare under penalty of pequry that the foregoing is true and correct. Executed on (his 16a day of
June. 2021.

Respectfully aibmittei

Rashan Williams # 422041
cc:

File/dec#304580

\\Mepd05\JCSMp-cfcori5tance80\Hy Documented lente\Wl Ilia ms\VWIIiams Rashan #422041\Williams Rashan BIO USSCTodt

Rashan Wiliams v. Darrel Vannoy, Warden

1.

